i

<

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAY 15 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

PAUL EDWARD DURAN,
Petitioner-Appellant,
v.
MATTHEW CATE, Sec. of Corn,

No.

19-55304

D.C. No. 2:16-cv-02666-AG-FFM
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

CANBY and CALLAHAN, Circuit Judges.

Appellant's petition for rehearing en banc (Docket Entry No. 13) is
construed as a motion for reconsideration with suggestion for rehearing en banc.
So construed, the motion is denied. See 9th Cir. R. 27-10; Gen. Ord. § 6.11.
No further filings shall be entertained in this closed case.

r

V\
V
I

.^W, v

'ts

l 3 i O -CVV O^b l l ^2°

-Vo /Vpp\v^^- (~ioiA voo (2^&
CMxJfc 0- 52S^3^i

I

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 11 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

PAUL EDWARD DURAN,
Petitioner-Appellant,
v.

MATTHEW CATE, Sec. of Corn,

No.

19-55304

D.C. No. 2:16-cv-02666-AG-FFM
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

LEAVY and MILLER, Circuit Judges.

The request for a certificate of appealability (Docket Entry Nos. 5 and 6) is
denied because appellant has not shown that “jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.”‘ Slack v. McDaniel, 529 U.S. 473, 484
(2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41
(2012); Miller-El v. Cockrell, 537 U.S'. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

f

f
V.

c
O sF'c^eV'

<d

L

M.O'KexA V&<

-^-vv^-'e ^c>

t

^.yi4<€:'yv^lr/^ £/r^ ^ f=
r&t).

Sn^^°\a c*\ c9- p / t-x^Az c C>i/l

)&<r\

'C>(^
/
r /-a_<

U

VV

^jlO'e^v jWcMA^k. 2-0 ZOSO

FILED

UNITED STATES COURT OF APPEALS

MAR 20 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

PAUL EDWARD DURAN,
Petitioner-Appellant,
v.
MATTHEW CATE, Sec. of Corr.,

No.

19-55304

D.C. No. 2:16-cv-02666-AG-FFM
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

CLIFTON and NGUYEN, Circuit Judges.

Appellant’s motion for an extension of time to file a motion for
reconsideration (Docket Entry No. 10) is granted. Any motion for reconsideration
is due by April 20, 2020.

Case 2:16-cv-02666-AG-FFM Document 71 Filed 02/28/19 Page 1 of 1 Page ID #:3646

1
2
3
4

5
6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10 PAUL EDWARD DURAN,
Petitioner,

11
12

v.

Case No. CV 16-2666 AG (FFM)
ORDER ACCEPTING FINDINGS,
CONCLUSIONS AND
RECOMMENDATIONS OF
UNITED STATES MAGISTRATE JUDGE

13 MATTHEW CATE,
14

Respondent.

15
16

Pursuant to 28 U.S.C. § 636, the Court has reviewed the entire record in this

17 action, the Report and Recommendation of United States Magistrate Judge (“Report”)
18 (Docket No. 68), and the objections to the Report. Good cause appearing, the Court
19 concurs with and accepts the findings of fact, conclusions of law, and recommendations
20 contained in the Report after having made a de novo determination of the portions to

21 which objections were directed.
22

IT IS ORDERED that judgment be entered dismissing the Petition with prejudice.

23
24 DATED: February 28, 2019
25

26
27
28

ANDREW J. GUILFORD
United States District Judge

Case 2:16-cv-02666-AG-FFM Document 73 Filed 02/28/19 Page 1 of 2 PagelD#:3648

1
2
3
4
5

6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10 PAUL EDWARD DURAN,

Petitioner,

11
12

v.

No. CV 16-2666 AG (FFM)
ORDER DENYING CERTIFICATE OF
APPEALABILITY

13 MATTHEW CATE,
14

Respondent.

15
16

Rule 11(a) of the Rules Governing § 2254 Actions provides:

17

(a) Certificate of Appealability. The district court must issue

18

or deny a certificate of appealability when it enters a final

19

order adverse to the applicant. Before entering the final order,

20

the court may direct the parties to submit arguments on

21

whether a certificate should issue. If the court issues a

22

certificate, the court must state the specific issue or issues that

23

satisfy the showing required by 28 U.S.C. § 2253(c)(2). If the

24

court denies a certificate, the parties may not appeal the denial

25

but may seek a certificate from the court of appeals under

26

Federal Rule of Appellate Procedure 22. A motion to

27

reconsider a denial does not extend the time to appeal.

28 III

i

Case 2:16-cv-02666-AG-FFM Document 73 Filed 02/28/19 Page 2 of 2 Page ID #:3649

Here, given the Court’s ruling on settled legal issues, the Court does not require

1

2 any arguments from the parties on whether a certificate of appealability (“COA”) should
3
4

issue.
Under 28 U.S.C. § 2253(c)(2), a COA may issue “only if the applicant has made a

5 substantial showing of the denial of a constitutional right.” Here, the Court dismissed
6 the petition on the merits. Thus, the Court’s determination of whether a COA should
7 issue here is governed by Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595, 146 L. Ed.

8 2d 542 (2000), where the Supreme Court held that the showing required to satisfy
9 section 2253(c) after a habeas petition is denied on the merits is as follows:
10

The petitioner must demonstrate that reasonable jurists would

11

find the district court’s assessment of the constitutional claims

12

debatable or wrong.

13 529 U.S. at 484.
14

Here, the Court finds that reasonable jurists would not find the district court’s

15 decision debatable or wrong.
16

Accordingly, a COA is not appropriate with respect to the judgment entered

17 herein and is DENIED.
18
19 Dated: February 28, 2019
20

ANDREW J. GUILFORD
United States District Judge

21
22
23

Presented by:

24

25
26

IS/ FREDERICK F. MUMM
FREDERICK F.MUMM
United States Magistrate Judge

27

28
2

qase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 1 of 28 Page ID #:354|3

1
2
3
4

5
6
7

8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

PAUL EDWARD DURAN

No. CV 16-2666-AG (FFM)

12
13
14

15
16

REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE
JUDGE

Petitioner,
v.
MATTHEW CATE,
Respondent.

17
18

This Report and Recommendation is submitted to the Honorable Andrew J.

19

Guilford, United States District Judge, pursuant to 28 U.S.C. § 636 and General

20

Order 05-07 of the United States District Court for the Central District of

21

California. For the reasons discussed below, it is recommended that the First

22

Amended Petition be denied and the action be dismissed with prejudice.

23
24

I. PROCEEDINGS

25

Petitioner, Paul Edward Duran, a state prisoner in the custody of the

26

California Department of Corrections, filed a Petition for Writ of Habeas Corpus

27

by a Person in State Custody pursuant to 28 U.S.C. § 2254 on April 19, 2016. On

28

August 8, 2016, Respondent filed an answer to the Petition. That same date,

Cflase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 2 of 28 Page ID #:354|4

1

Petitioner sought leave to amend the Petition by adding one exhausted claim and

2

seven unexhausted claims. The undersigned determined that Petitioner was

3

entitled to amend his Petition as a matter of course and permitted Petitioner to file

4

a First Amended Petition (“FAP”).

5

Petitioner subsequently requested that the undersigned stay these

6

proceedings under Rhines v. Weber, 544 U.S. 269, 274-75, 125 S. Ct. 1528, 161

7

L. Ed. 2d 440 (2005), and sought to add a ninth claim. Because Respondent did

8

not oppose Petitioner’s request to stay, the undersigned granted that request. The

9

undersigned, however, denied Petitioner’s request to amend the FAP because the

10

proposed ninth claim was “indisputably frivolous and without merit,” and, thus,

11

amendment would have been futile. (Docket No. 21.)

12

Petitioner then returned to state court to exhaust the seven unexhausted

13

claims that he asserted in his FAP. He eventually notified the undersigned that he

14

had, in fact, exhausted his previously unexhausted claims, and the undersigned,

15

therefore, lifted the stay in this matter.1 Petitioner subsequently filed a motion for

16

leave to amend the FAP. The motion, however, was denied because Petitioner

17

engaged in an unjustified, undue delay in asserting each of the proposed new

18

grounds for relief and because amendment would have been futile, as each of the

19

proposed new grounds for relief was meritless.

20

21

Thereafter, on.September 11, 2018, Respondent filed a return to the FAP.
On October 22, 2018, Petitioner filed a traverse,

22
23
24

25
26
27

i

Respondent contends that the majority of the grounds for relief that Petitioner
asserts in his FAP remain unexhausted. The undersigned, however, need not reach
that argument because, as explained herein, each of the allegedly unexhausted
grounds for relief clearly fails on its merits. See Cassett v. Stewart, 406 F.3d 614,
623-24 (9th Cir. 2005) (district court may dismiss unexhausted ground for relief
where it is “perfectly clear” that petitioner has not raised colorable federal ground
for relief).

28
2

Qase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 3 of 28 Page ID #:354|5

1

The matter, thus, stands submitted and ready for decision.

2
3
4

II. PROCEDURAL HISTORY
A Los Angeles County Superior Court jury convicted Petitioner of

5

carjacking, attempted carjacking, and attempted second degree robbery. The trial

6

court, subsequently, found that Petitioner had suffered a prior strike conviction.

7

Petitioner, thereafter, was sentenced to a state prison term of twenty-one years.

8
9

Petitioner appealed his conviction. On June 10, 2015, the California Court
of Appeal filed an unpublished opinion in which it affirmed the judgment .

10

Petitioner then filed a petition for review in the California Supreme Court, which

11

denied the petition without comment on August 26, 2015.

12

Petitioner then initiated this action. After obtaining an order staying this

13

action (see supra), Petitioner filed a series of state-court collateral attacks to his

14

conviction and sentence, the last of which was denied on June 21, 2017.

15
16

III. FACTUAL BACKGROUND

17

The following facts were taken verbatim from the California Court of

18

Appeal’s opinion affirming Petitioner’s conviction:

19

On the afternoon of July 21, 2013, as Melinda McLeod was parking her car

20

near her home, [Petitioner] approached her from behind, punched her in the back,

21

took her car keys and got into her vehicle and drove off. After [Petitioner] was

22

apprehended later that evening, McLeod identified him at a field show-up and

23

also identified him at trial.™ She testified that when he assaulted her, [Petitioner]

24

had been “kind of greasy and sweaty,” and his long hair (pulled back during trial)

25

was “down and sweaty.” McLeod also noticed [Petitioner] had “blocks of dark

26

tattoos” on his forehead. She could not identify them at the time because

27

[Petitioner] was dirty and sweaty, and she was afraid. She reported the incident

28

to the police. Later that day, [Petitioner] led police on a pursuit weaving in and

3

Qase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 4 of 28 Page ID #:354|6

1

out of traffic and into oncoming traffic. The officers ultimately abandoned the

2

vehicle pursuit, deeming it too dangerous in light of the amount of pedestrian

3

traffic. One officer involved in that pursuit testified he saw “666” tattooed across

4

[Petitioner’s] forehead, although he did not call that information in nor include it

5

in a report.
FN

6
7

8

McLeod testified that, on a scale of 1 -to10, her degree of certainty that [Petitioner]
was the man who assaulted her was a “10.

At about 8:00 p.m. on July 21, 2013, Glenda Cerrato had just parked her

9

car. She left the front driver’s side door open and opened the rear door to get her

10

four year old out of the car. Just then, [Petitioner] drove toward Cerrato at a high

11

rate of speed, parked the vehicle and got out. He sat in the driver’s seat of

12

Cerrato’s car screaming at her to give him her keys. Cerrato grabbed her child

13

and ran inside her home. [Petitioner] ran away. At trial, Cerrato identified

14

[Petitioner] as the man who tried to take her keys. Cerrato testified that at the

15

time he tried to take her keys, [Petitioner’s] face was dirty and sweaty, his hair

16

was all over his face, and he had “something big” tattooed on his forehead.

17

Cerrato identified [Petitioner] later that evening during a field show-up.

18

Next, [Petitioner] approached Benjamin Hakimfar and demanded the keys

19

as Hakimfar approached his car. Hakimfar made up a story, telling [Petitioner]

20

the car was not his, but that he lived across the street and would bring his own car

21

over. [Petitioner] agreed; Hakimfar called 911 as he left the scene. Hakimfar,

22

who testified at trial that he was “positive” [Petitioner] had been the man he

23

encountered, described him at the time of their July 21, 2103, encounter as having

24

long dirty hair and “a lot of tattoos” on his face. He could not specify what the

25

tattoos were.

26

Later on the evening of July 21, 2013, [Petitioner] approached Ramon

27

Orozco as Orozco was removing an item from the trunk of his car. [Petitioner]

28

tried to take Orozco’s keys, slapped Orozco’s face and ran off. Orozco ran after
4

Cflase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 5 of 28 Page ID #:354|7

1

[Petitioner], signaling [Petitioner’s] location to a helicopter overhead. As Orozco

2

rounded the comer, [Petitioner] punched him in the face. When the police arrived

3

at the scene they found [Petitioner] — very sweaty and dirty, with long greasy hair

4

— hiding in the bushes. One of the apprehending officers testified that

5

[Petitioner] had tattoos on his face but that he could not make out the details of

6

the tattoos at first because [Petitioner] was so dirty. Orozco testified that he saw

7

tattoos on [Petitioner’s] forehead, and that his long hair was loose at the time of

8

their encounter. Orozco identified [Petitioner] both at the scene and in court as

9

the man who stmck him and tried to take his keys. [Petitioner’s] defense,

10

explored by cross-examining prosecution witnesses, was that this was a case of

11

mistaken identity and he was not the person who committed the crimes alleged

12

against him. This contention was based on the fact that [Petitioner] has the digits

13

“666” prominently tattooed on his forehead and no complaining witness included

14

that information in his or her description to the police. After he was apprehended

15

and given his Miranda rights, [Petitioner] told one officer: “I took the car. I took

16

the car from the old lady.”

17

(Lodged Doc. No. 7 at 3-4 (footnote omitted).)

18
19
20

IV. PETITIONER’S CLAIMS
1.

The trial court violated Petitioner’s rights under the Fourth

21

Amendment by refusing to suppress evidence obtained as the result of an illegal

22

search and seizure.

23

2.

Petitioner did not voluntarily, knowingly, and intelligently waive his

24

right to counsel at trial because the trial court did not re-advise him of the dangers

25

of representing himself after the prosecution amended the information in a

26

manner that increased Petitioner’s criminal exposure.

27

28

3.

Petitioner was incompetent at trial and lacked the mental capacity to

exercise his right to self-representation.
5

Cflase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 6 of 28 Page ID #:354|8

1
2

4.

The prosecutor violated Petitioner’s right to due process and a fair

trial by withholding exculpatory evidence.

3

5.

Trial counsel deprived Petitioner of his Sixth Amendment right to

4

effective assistance of counsel by failing to challenge the pre-trial identifications

5

of Petitioner.

6

6.

Petitioner was deprived of his right to effective assistance of counsel

7

on appeal because his appellate counsel failed to assert several meritorious

8

arguments on appeal and, instead, filed a no-merits brief, pursuant to People v.

9

Wende, 25 Cal. 3d 436, 441-42, 158 Cal. Rptr. 839, 600 P.2d 1071 (1979).

10

7.

The prosecution violated Petitioner’s constitutional rights under

11

clearly established Supreme Court authority by failing to arraign him within

12

forty-eight hours of his arrest.

13

8.

The trial judge engaged injudicial misconduct by quashing

14

Petitioner’s subpoena duces tecum that was directed at uncovering information

15

that would have been beneficial to Petitioner’s defense and appeal.

16
17

V. STANDARD OF REVIEW

18

The standard of review applicable to Petitioner’s claims herein is set forth

19

in 28 U.S.C. § 2254(d), as amended by the Antiterrorism and Effective Death

20

Penalty Act of 1996 (“AEDPA”) (Pub. L. No. 104-132, 110 Stat. 1214 (1996)).

21

See 28 U.S.C. § 2254(d); see also Lindh v. Murphy, 521 U.S. 320, 336, 117 S. Ct.

22

2059, 138 L. Ed. 2d 481 (1997). Under AEDPA, a federal court may not grant

23

habeas relief on a claim adjudicated on its merits in state court unless that

24

adjudication “resulted in a decision that was contrary to, or involved an

25

unreasonable application of, clearly established Federal law, as determined by the

26

Supreme Court of the United States,” or “resulted in a decision that was based on

27

an unreasonable determination of the facts in light of the evidence presented in

28

III

6

Cflase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 7 of 28 Page ID #:354|9

1

the State court proceeding.”2 28 U.S.C. § 2254(d); see Williams v. Taylor, 529

2

U.S. 362, 402, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000).

3

The phrase “clearly established Federal law” means “the governing legal

4

principle or principles set forth by the Supreme Court at the time the state court

5

renders its decision.”3 Lockyer v. Andrade, 538 U.S. 63, 71-72, 123 S. Ct. 1166,

6

155 L. Ed. 2d 144 (2003). However, a state court need not cite the controlling

7

Supreme Court cases in its own decision, “so long as neither the reasoning nor the

8

result of the state-court decision contradicts” relevant Supreme Court precedent

9

which may pertain to a particular claim for relief. Early v. Packer, 537 U.S. 3, 8,

10
11

123 S. Ct. 362, 154 L. Ed. 2d 263 (2002) (per curiam).
A state court decision is “contrary to” clearly established federal law if the

12

decision applies a rule that contradicts the governing Supreme Court law or

13

reaches a result that differs from a result the Supreme Court reached on

14

“materially indistinguishable” facts. Williams, 529 U.S. at 405-06. A decision

15

involves an “unreasonable application” of federal law if “the state court identifies

16

the correct governing legal principle from [Supreme Court] decisions but

17

unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413.

18

A federal habeas court may not overrule a state court decision based on the

19

federal court’s independent determination that the state court’s application of

20
21
22
23
24

25
26
27

28

2 In addition, under 28 U.S.C. § 2254(e)(1), factual determinations by a state
court “shall be presumed to be correct” unless the petitioner rebuts the
presumption “by clear and convincing evidence.”
3 Under AEDPA, the only definitive source of clearly established federal law is
set forth in a holding (as opposed to dicta) of the Supreme Court. See Williams,
529 U.S. at 412; see also Yarborough v. Alvarado, 541 U.S. 652, 660-61, 124 S.
Ct. 2140, 158 L. Ed. 2d 938 (2004). Thus, while circuit law may be “persuasive
authority” in analyzing whether a state court decision was an unreasonable
application of Supreme Court law, “only the Supreme Court’s holdings are
binding on the state courts and only those holdings need be reasonably applied.”
Clark v. Murphy, 331 F.3d 1062, 1069 (9th Cir. 2003).
7

Cflase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 8 of 28 Page ID #:355|0

1

governing law was incorrect, erroneous, or even “clear error.” Lockyer, 538 U.S.

2

at 75. Rather, a decision may be rejected only if the state court’s application of

3

Supreme Court law was “objectively unreasonable.” Id.

4

The standard of unreasonableness that applies in determining the

5

“unreasonable application” of federal law under Section 2254(d)(1) also applies

6

in determining the “unreasonable determination of facts in light of the evidence”

7

under Section 2254(d)(2). Taylor v. Maddox, 366 F.3d 992, 999 (9th Cir. 2004).

8

Accordingly, “a federal court may not second-guess a state court’s fact-finding

9

process unless, after review of the state-court record, it determines that the state

10

court was not merely wrong, but actually unreasonable.” Id.

11

Where more than one state court has adjudicated the petitioner’s claims, the

12

federal habeas court analyzes the last reasoned decision. Barker v. Fleming, 423

13

F.3d 1085, 1091 (9th Cir. 2005) (citing Ylst v. Nunnemaker, 501 U.S. 797, 803,

14

111S. Ct. 2590, 115 L. Ed. 2d 706 (1991) for presumption that later unexplained

15

orders, upholding judgment or rejecting same claim, rest upon same ground as the

16

prior order). Thus, a federal habeas court looks through ambiguous or

17

unexplained state court decisions to the last reasoned decision in order to

18

determine whether that decision was contrary to or an unreasonable application of

19

clearly established federal law. Bailey v. Rae, 339 F.3d 1107, 1112-13 (9th Cir.

20

2003).

21
22
23
24

VI. DISCUSSION
A.

The Fourth Amendment Claims
Petitioner raises two separate grounds for relief that implicate his rights

25

under the Fourth Amendment. First, he contends that the trial court violated his

26

rights under the Fourth Amendment by refusing to suppress evidence obtained as

27

the result of an illegal search and seizure. Specifically, he appears to contend that

28

some or all of the. evidence gathered against him should have been excluded
8

qase 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 9 of 28 Page ID #:355|1

1

because that evidence was obtained as a result of, and tainted by, an unduly

2

suggestive photographic line-up that police used to secure an eyewitness’s

3

positive identification of Petitioner. According to Petitioner, law enforcement

4

somehow violated his Fourth Amendment rights by using the photographic line­

5

up to obtain the positive identification. As such, any evidence derived from that

6

purported Fourth Amendment violation should have been excluded, just as the

7

trial court excluded the sole pre-trial identification obtained through use of the

8

photographic line-up. Second, Petitioner contends that the prosecution violated

9

clearly established Supreme Court authority by failing to arraign him within

10

forty-eight hours of his arrest. As explained below, Petitioner’s Fourth

11

Amendment claims are not cognizable on federal habeas review.

12

A state prisoner may not invoke a Fourth Amendment ground for relief on

13

federal habeas review if the prisoner had the opportunity for “full and fair”

14

consideration of the claim in state court. Stone v. Powell, 428 U.S. 465, 494, 96

15

S. Ct. 3037, 49 L. Ed. 2d 1067 (1976). “The relevant inquiry is whether

16

petitioner had the opportunity to litigate his claim, not whether he did in fact do

17

so or even whether the claim was correctly decided.” Ortiz-Sandoval v. Gomez,

18

81 F.3d 891, 899 (9th Cir. 1996). The Ninth Circuit has stated that even if the

19

state court’s determination of the Fourth Amendment issues results in an incorrect

20

decision, federal habeas corpus actions shall not provide a remedy so long as the

21

petitioner was afforded a full and fair opportunity to litigate the issues in state

22

court. See Locks v. Summer, 703 F.2d 403, 408 (9th Cir. 1983).

23

California provides criminal defendants with a full and fair opportunity to

24

litigate Fourth Amendment claims through the procedures of California Penal

25

Code section 1538.5. Section 1538.5 permits a defendant to move to suppress

26

evidence on the ground that it was obtained in violation of the Fourth

27

Amendment. See Gordon v. Duran, 895 F.2d 610, 613-14 (9th Cir. 1990); see

28

also Locks, 703 F.2d at 408 (9th Cir. 1983); Mack v. Cupp, 564 F.2d 898, 901
9

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 10 of 28 Page ID #:3552

1

(9th Cir. 1977). Petitioner had the opportunity in state court to assert any

2

supposed Fourth Amendment violation arising from law enforcement’s use of the

3

photographic line-up and the purported delay in his arraignment.4 Accordingly,

4

he cannot maintain any Fourth Amendment challenge in this Court.5

5

Regardless, no Fourth Amendment violation occurred. Although Petitioner

6

maintains that the photographic line-up in some way violated his Fourth

7

Amendment rights, the admission of a witness’s pre-trial identification obtained

8

by using an impermissibly suggestive identification procedure violates the

9

accused’s Fifth Amendment right to due process. Simmons v. United States, 390

10

U.S. 377, 384, 88 S. Ct. 967, 19 L. Ed. 2d 1247 (1968).

11

Moreover, even assuming that the use of the photographic line-up

12

somehow violated Petitioner’s rights under the Fourth Amendment, Petitioner

13
14
4 Petitioner’s claim of pre-arraignment delay implicates the Fourth Amendment,

15 which requires a determination of probable cause before or promptly after a
16 defendant’s arrest. Gerstein v. Pugh, 420 U.S. 103, 124-25, 95 S. Ct. 854, 43 L.
17
18
19

Ed. 2d 54 (1975); see also County ofRiverside v. McLaughlin, 500 U.S. 44, 56,
111 S. Ct. 1661, 114 L. Ed. 2d 49 (1991) (holding in civil rights action that Fourth
Amendment requires judicial probable cause determinations to be made within
forty-eight hours of warrantless arrest, absent extraordinary circumstances).

5 Moreover, in his proposed claim, Petitioner appears to contend that he had a
constitutional right to have any and all evidence derived from the purported Fourth
21 Amendment violation excluded. But, as the Supreme Court has made clear, the
22 Constitution provides for no such right. See United States v. Calandra, 414 U.S.
23 338, 348, 94 S. Ct. 613, 620, 38 L. Ed. 2d 561 (1974) (explaining that
exclusionary rule is “a judicially created remedy designed to safeguard Fourth
24 Amendment rights generally through its deterrent effect, rather than a personal
25 constitutional right of the party aggrieved”); see also Bretz v. Crist, 546 F.2d
1336, 1341 (9th Cir. 1976) (noting that Stone's holding barring Fourth
26 Amendment challenges on federal habeas review where petitioner had full and fair
27 opportunity to contest admission of illegally obtained evidence in state court
“confirms that the exclusionary rule, while constitutionally inspired, is not
28 constitutionally required”).

20

10

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 11 of 28 Page ID #:3553

1

points to no evidence that was admitted at trial that could be considered fruit of

2

the purportedly improper photographic line-up. The photographic line-up was

3

excluded from trial, and the witness who viewed the photographic line-up (a

4

witness who was not one of Petitioner’s victims) did not testify. Although each

5

of Petitioner’s victims identified him as the culprit, the victims did not identify

6

him from a photographic line-up. Rather, they identified him at various field

7

show-ups. The photographic line-up had no impact on those identifications or on

8

any other evidence that was admitted against Petitioner.

9

Petitioner’s claim that a Fourth Amendment violation occurred in

10

connection with his arraignment is equally meritless. As the superior court noted

11

in rejecting this claim, Petitioner was arrested on December 3, 2013 and was

12

arraigned the next day, on December 4, 2013. In other words, he was arraigned

13

well-within forty-eight hours of his arrest.

14
15

Accordingly, Petitioner is not entitled to habeas relief with respect to either
of his Fourth Amendment claims.

16

B.

17

Petitioner asserts two separate grounds for relief in relation to his decision

The Faretta6 Claims

18

to waive his right to counsel and, instead, represent himself at trial. First, he

19

contends that the trial court erred in failing to re-advise him of his right to

20

counsel after the prosecution amended the information against him to add an

21

allegation that he had suffered a prior strike conviction. Noting that this

22

amendment increased his criminal exposure, Petitioner maintains that he would

23

have opted to have counsel represent him if, in the face of the amendment, the

24

trial court had re-advised him of the dangers of representing himself.

25

26

Second, Petitioner contends that his initial waiver of his right to counsel
was involuntary because he was incompetent to stand trial and lacked the

27

28

6 Faretta v. California, 422 U.S. 806, 95 S. Ct. 2525, 45 L. Ed. 2d 562 (1975).
11

Ckse 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 12 of 28 Page ID #:3554

1

requisite mental capacity to exercise his right to self-representation. In support of

2

this contention, Petitioner asserts that, in 2004, he was diagnosed with

3

schizophrenia and that, in 2010, he suffered a head injury. Consequently,

4

according to Petitioner, he was not competent in 2014 to waive his right to

5

counsel.

6

Petitioner raised both of these claims before the Los Angeles County

7

Superior Court. The superior court rejected both claims on their respective

8

merits. First, the superior court noted that no authority existed for the proposition

9

that the prosecution’s amending of the information obligated the trial court to re­

10

advise Petitioner of his right to counsel. Further, the superior court observed that,

11

in fact, the trial court advised Petitioner about the amended information and its

12

consequences, and Petitioner unequivocally stated that he understood those

13

consequences and wanted to proceed to trial. Citing these facts, the superior

14

court concluded that Petitioner’s contention that the trial court somehow failed to

15

inform Petitioner regarding the sentencing enhancement was “wholly without

16

merit.” (Lodged Doc. No. 11 at 7.)

17

Second, the superior court found that there was no evidence to support

18

Petitioner’s contention that he lacked the requisite mental capacity to waive his

19

right to counsel. In doing so, the superior court noted that Petitioner never

20

informed the trial court about his purported mental health history. Rather, he

21

signed a Faretta form setting forth his education (which included college) and

22

stating that he understood the charges against him, as well as the mens rea

23

requirements to prove the charged crimes. The superior court also recounted that

24

Petitioner had conducted himself “appropriately during the trial” and that he had

25

successfully moved to suppress a victim’s pre-trial identification of Petitioner as

26

the culprit of the charged crimes. {Id. at 8.) Finally, the superior court cited the

27

lack of any evidence to substantiate Petitioner’s claim that he was mentally

28

incompetent when he waived his right to counsel. As explained below, the

12

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 13 of 28 Page ID #:3555

1

superior court did not commit constitutional error in rejecting either of

2

Petitioner’s Faretta claims.

3

1.

4

5
6
7

8
9
10
11
12
13

Factual Background

The Los Angeles Superior Court set forth the relevant facts underlying
Petitioner’s waiver of his right to counsel:
[Petitioner] made his Faretta motion on March 6, 2014,
before the Honorable Dennis J. Landin. [Petitioner]
completed a four-page form that advised him of his
rights and detailed the “dangers and disadvantages to
self-representation.” [Petitioner] initialed each box on
the form. One box said, “I understand that it is the
advice and recommendation of this Court that I do not
represent myself and that I accept court-appointed
counsel.” After [Petitioner] initialed and signed the
form, Judge Landin read the form to [Petitioner] in its
entirety. Among other warnings, Judge Landin told
[Petitioner] that, if he wished to represent himself, he
would not be able later to claim that he made a mistake
or that he received ineffective assistance of counsel.

14
15
16
17
18
19
20

21
22
23
24

25
26
27

28

Judge Mader [told] [Petitioner] about his increased
exposure when the People filed the amended information
on March 19, 2014. [Petitioner] insisted he wanted to go
to trial nevertheless. The transcript is attached to this
memorandum opinion. Judge Mader told [Petitioner],
“Mr. [Petitioner], what they have done is they have
added a strike at the end of the information, it’ss a strike
stri
that apparently occurred out of state in New Mexico in
-./Ann 5’ rr”
!
j rn
2000.
The court^then arraigned
[Petitioner]1 (HI the
amended information. Judge Mader then asked
[Petitioner] if there was “anything [he] want[ed] to say
about the new information/ [Petitioner] answered, “No,
your honor.” He then made a motion to dismiss the case
under Penal Code section 1385 for “lack of evidence.
Judge Mader denied that motion, then offered to
bifurcate [Petitioner’s] trial on the allegation of the prior
strike. The court then told [Petitioner], “Now, I want
you to understand that by adding a prior conviction it
changes what your maximum exposure is in going to
trial. Judge Mader asked the prosecutor, “What, Ms.
Sumabat-Graff, is his maximum exposure?” The
prosecutor answered that, after the addition of the strike
allegation, [Petitioner’s] possible exposure was about 23
to 27 years. Judge Mader told [Petitioner], ‘’So that’s
what the exposure is, sir. The People yesterday offered
you five years.” [Petitioner] responded, “Your honor,
there’s a constitutional violation involved in this case.”
The court said, “Sir, I don’t think you’re really grasping
5 t

13

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 14 of 28 Page ID #:3556

1

what’s going on here.” [Petitioner] responded, “I
understand exactly whaf s going on. That doesn’t —
we’re proceeding with the trial, your honor. I’m ready to
pick a jury.” The district attorney then said. “For the
record, your honor, I did the calculations. Actually, 32
years] is his exposure right now.” Judge Mader tola
[Petitioner]: “So the maximum is 32 years, sir. You
understand that, and you still want to go to trial?”
[Petitioner] answered, “Yes, your honor, I do.”

2
3
4
5

6

(Lodged Doc. No. 11 at 4-7.)

7

2.

8

Federal Legal Standard and Analysis
(a)

9

Re-advisement of Right to Counsel

If Petitioner merely claims that the trial court erred in applying California

10

law regarding whether he had a right to be re-advised of his right to counsel, that

11

claim is not cognizable on federal habeas review. See Estelle v. McGuire, 502

12

U.S. 62, 68, 112 S. Ct. 475, 480, 116 L. Ed. 2d 385 (1991) (“In conducting

13

habeas review, a federal court is limited to deciding whether a conviction violated

14

the Constitution, laws or treaties of the United States.”).

15

To the extent that Petitioner has alleged a Sixth Amendment violation, that

16

claim, likewise, fails. A defendant in a criminal action has a constitutional right

17

to be represented by counsel. Faretta v. California, 422 U.S. 806, 807, 95 S. Ct.

18

2525, 2527, 45 L. Ed. 2d 562 (1975). “[T]he Supreme Court has also recognized

19

that a defendant has the reciprocal constitutional right to ‘proceed without

20

counsel when he voluntarily and intelligently elects to do so.” John-Charles v.

21

California, 646 F.3d 1243, 1248 (9th Cir. 2011) (quoting Faretta, 422 U.S. at

22

807).

23

The United States Supreme Court, however, has never held that a defendant

24

who is advised of his right to counsel and waives that right is entitled to

25

subsequently be re-advised of the right to counsel. Indeed, the Ninth Circuit has

26

observed the lack of Supreme Court precedent on that precise issue. See Becker

27

v. Martel, 472 F. App’x. 823, 824 (9th Cir. April 30, 2012) (noting that Supreme

28

Court “has not squarely addressed whether a substantial change in circumstances
14

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 15 of 28 Page ID #:3557

1

requires re-advisal of the right to counsel”); see also John-Charles, 646 F.3d at

2

1248-50 (noting lack of “clearly established Supreme Court precedent governing

3

a self-represented defendant’s request for reappointment of counsel after the

4

defendant has made a valid Faretta waiver of the right to counsel”).

5

Consequently, the Los Angeles County Superior Court’s rejection of Petitioner’s

6

claim could neither have been contrary to, nor an unreasonable application of,

7

clearly established federal law as determined by the Supreme Court. See Lopez v.

8

Smith,__U.S.__ ,135 S. Ct. 1,4, 190 L. Ed. 2d 1 (2014); Carey v. Musladin, 549

9

U.S. 70, 77, 127 S. Ct. 649, 166 L. Ed. 2d 482 (2006) (where Supreme Court

10

precedent gives no clear answer to question presented, “it cannot be said that the

11

state court ‘unreasonably] applied] clearly established Federal law’”).

12

Moreover, even under the de novo standard of review, Petitioner is not

13

entitled to relief. In the Ninth Circuit, “[a] competent election by the defendant to

14

represent himself and to decline the assistance of counsel once made before the

15

court carries forward through all further proceedings in that case unless

16

appointment of counsel for subsequent proceedings is expressly requested by the

17

defendant or there are circumstances which suggest that the waiver was limited to

18

a particular stage of the proceedings.” United States v. Springer, 51 F.3d 861,

19

864-65 (9th Cir. 1995). “[A] properly conducted Faretta colloquy need not be

20

renewed in subsequent proceedings unless intervening events substantially

21

change the circumstances existing at the time of the initial colloquy.” United

22

States v. Hantzis, 625 F.3d 575, 580-81 (9th Cir. 2010) (citing Springer, 51 F.3d

23

at 864-65); see also White v. United States, 354 F.2d 22, 23 (9th Cir. 1965) (no

24

Sixth Amendment violation where defendant was not advised of right to counsel

25

at re-sentencing after obtaining habeas relief where defendant previously had

26

provided valid Faretta waiver and did not indicate at re-sentencing that he wished

27

to withdraw that waiver).

28

III

15

CBise 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 16 of 28 Page ID #:35£8

1

This precedent forecloses Petitioner’s challenge to the trial court’s failure

2

to re-advise him of his right to counsel. Although the prosecutor filed an

3

amended information after Petitioner opted to represent himself, that amendment

4

did not substantially change the circumstances existing at the time that Petitioner

5

exercised his right to represent himself. On the contrary, the only difference

6

between the original information and the amended information was that the

7

amended information alleged that Petitioner had suffered a prior serious felony

8

conviction within the meaning of the Three Strikes law, whereas the original

9

information contained no such allegation. As such, even under the Ninth

10

Circuit’s standard, Petitioner was not entitled at any point after opting to

11

represent himself to be re-advised of his right to counsel.

12

Regardless, there is no reason to believe that Petitioner would have elected

13

to invoke his right to counsel had he been re-advised of that right after the

14

prosecution amended the information. The record is clear that the trial court

15

advised Petitioner about the amended information and explained that, as a result

16

of the amendment, Petitioner faced a greater prison sentence than he did under the

17

original information. When the trial court asked Petitioner if he wished to say

18

anything about the amended information, Petitioner responded that he did not.

19

What is more, when the trial court expressed concern that Petitioner had not

20

grasped the disparity between his maximum potential sentence (which was thirty-

21

two years) and his potential sentence if he pleaded guilty (which was five years),

22

Petitioner cut off the trial court, insisting that he “understood] exactly what [was]

23

going on” and announced that he wished to “proceed[] with trial.” Given these

24

facts, there is no reason to believe that Petitioner would have relinquished his pro

25

per status if the trial court had attempted to re-advise him about the pitfalls of

26

representing himself at trial.

27

III

28

III

16

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 17 of 28 Page ID #:35E9

1
2

(b)

Petitioner’s Competency

The mental competency standard for a criminal defendant waiving the right

3

to counsel is the same standard applicable for a criminal defendant’s competency

4

to stand trial and plead guilty. Moran v. Godinez, 509 U.S. 389, 399, 113 S. Ct.

5

2680, 125 L. Ed. 2d 321 (1993). For each, the standard for competence is

6

whether a defendant has a reasonable degree of rational understanding and has a

7

rational as well as factual understanding of the proceedings against him. Id.

8
9

Determining whether a criminal defendant is competent to waive his right
to counsel does not require inquiry into the defendant’s “technical legal

10

knowledge.” Id. Rather, as the Supreme Court has recognized, “the competence

11

that is required of a defendant seeking to waive his right to counsel is the

12

competence to waive the right, not the competence to represent himself.” Id.

13

Here, as the state superior court noted, there is no evidence in the record to

14

suggest that Petitioner was mentally incompetent to waive his right to counsel.

15

Aside from the fact that Petitioner failed to inform the trial court of his mental

16

health history, the mental health history that exists is limited to a 2004 diagnosis

17

and a head injury in 2010. However, “[n]ot all people who have a mental

18

problem are rendered by it legally incompetent.” Bouchillon v. Collins, 907 F.2d

19

589, 593 (5th Cir. 1990) (“We venture to guess that if every accused were to be

20

adjudged incompetent who was rendered depressed or apathetic at finding himself

21

incarcerated and indicted on felony charges, few would ever be tried”).

22

Moreover, Petitioner’s 2004 diagnosis fails to show that Petitioner was

23

experiencing any particular symptoms approximately ten years later. The same is

24

true regarding his 2010 head injury. The undersigned further notes that

25

Petitioner, when pressed by his appellate counsel on the issue of Petitioner’s

26

competence to waive counsel, was unable to provide any evidence suggesting that

27

he was incompetent to waive his right to counsel during the relevant time period.

28

0See Lodged Doc. 11 at 8 n.9.)
17

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 18 of 28 Page ID #:3560

1

For the foregoing reasons, the state superior court’s rejection of this claim

2

was neither an unreasonable application of, nor contrary to, clearly established

3

federal law as determined by the Supreme Court. The undersigned also notes

4

that, even under a de novo standard of review, Petitioner’s claim would fail

5

because, as discussed above, he has provided no evidence to show that he was

6

mentally incompetent to waive his right to counsel. Accordingly, he is not

7

entitled to habeas relief with repect to either of his Faretta claims.

8

C.

9

In his third ground for relief, Petitioner contends that the prosecutor

The Prosecutor’s Discovery Obligations

10

violated Petitioner’s right to due process and a fair trial by withholding

11

exculpatory evidence. Although the nature of Petitioner’s claim is somewhat

12

unclear, he appears to seek information regarding why criminal charges were not

13

filed against him when he was first arrested. Accordingly, some factual

14

background is required. Petitioner was arrested on July 23, 2013, in connection

15

with the crimes underlying his conviction; however, he was not charged. Instead,

16

he was released the same day. Subsequently, on August 23, 2013, the district

17

attorney filed a felony complaint against Petitioner, and a superior court judge

18

signed a warrant for Petitioner’s arrest. He was arrested several months later on

19

December 3, 2013, and arraigned the next day.

20

In this action, Petitioner faults the prosecution for withholding information

21

regarding why the district attorney’s office issued a “district attorney’s reject on

22

July 24, 2013.” (FAP at 22.) According to Petitioner, the purportedly withheld

23

information would have shown that the witnesses who identified Petitioner were

24

unsure about their identifications and gave conflicting accounts regarding

25

whether Petitioner was the culprit. The Los Angeles County Superior Court

26

rejected this claim on the merits. As explained below, the superior court did not

27

commit constitutional error in doing so.

28

III

18

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 19 of 28 PagelD#:3561

1

The Due Process Clause requires the prosecution to disclose any evidence

2

that is material either to guilt or to punishment. Pennsylvania v. Ritchie, 480 U.S.

3

39, 57, 107 S. Ct. 989, 94 L. Ed. 2d 40 (1987); Brady v. Maryland, 373 U.S. 83,

4

87, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963). A Brady violation occurs when the

5

prosecution fails to disclose evidence that is “favorable to an accused” and

6

“material either to guilt or punishment.” Brady, 373 U.S. at 87. The due process

7

clause obligates the prosecution to disclose material exculpatory evidence on its

8

own motion regardless of whether there is a defense request. Kyles v. Whitley,

9

514 U.S. 419, 433, 115 S. Ct. 1555, 131 L. Ed. 2d 490 (1995).

10

Evidence is “favorable” if it is either exculpatory or impeachment

11

evidence. United States v. Bagley, 473 U.S. 667, 676, 105 S. Ct. 3375, 87 L. Ed.

12

2d 481 (1985). Evidence is “material ” “if there is a reasonable probability that,

13

had the evidence been disclosed to the defense, the result of the proceeding would

14

have been different.” Id. at 682 (observing a “reasonable probability” is a

15

probability sufficient to undermine confidence in the outcome of the case); see

16

Kyles, 514 U.S. at 436 (finding that, once error has been established, the error

17

necessarily had “substantial and injurious effect or influence in determining the

18

jury’s verdict”) (citing Brecht v. Abrahamson, 507 U.S. 619, 623, 113 S. Ct.

19

1710, 123 L. Ed. 2d 353 (1993).

20

Here, Petitioner’s Brady claim fails for a variety of reasons. As an initial

21

matter, there is no reason to believe that a “district attorney reject” exists. To be

22

sure, charges were not filed against Petitioner for approximately one month after

23

his initial arrest. But that fact does not dictate that the district attorney’s office

24

issued some kind of memorandum “rejecting” filing charges against Petitioner

25

when he was first arrested.

26

Moreover, even assuming such a “district attorney reject” exists, there is no

27

reason to believe that it contained information that was exculpatory to Petitioner.

28

Although Petitioner asserts that the supposed “district attorney reject” would

19

Cfltse 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 20 of 28 Page ID #:3562

1

undermine the witness identifications of Petitioner, he provides no evidence

2

whatsoever to substantiate that assertion. See James v. Borg, 24 F.3d 20, 26 (9th

3

Cir. 1994) (“Conclusory allegations which are not supported by a statement of

4

specific facts do not warrant habeas relief.”); Jones v. Gomez, 66 F.3d 199, 205

5

(9th Cir. 1995) (habeas relief not warranted where claims for relief are

6

unsupported by facts). What is more, there is no reason to believe that any such

7

evidence exists. On the contrary, each of the victims positively identified

8

Petitioner as the culprit. And, all of the victims were certain of their respective

9

identifications. Further, after Petitioner was arrested, he corroborated at least one

10

of the victim’s accounts by stating, “I took the car. I took the car from the old

11

lady.” (Lodged Doc. No. 7 at 4.)

12

Accordingly, the state superior court’s rejection of this ground for relief

13

was neither an unreasonable application of, nor contrary to, clearly established

14

federal law as determined by the Supreme Court. 7,

8

15

D.

16

Petitioner contends that both his trial counsel and his appellate counsel

The Performance of Trial Counsel and Appellate Counsel

17

failed to provide him with the effective assistance of counsel guaranteed by the

18

Fifth and Sixth Amendments. First, Petitioner faults his trial counsel for failing

19

to challenge several pre-trial witness identifications of Petitioner. Specifically,

20

Petitioner believes that counsel should have challenged McLeod’s identification

21
22
23
24

25
26
27

28

7 The undersigned also notes that Petitioner’s Brady claim would fail under the
de novo standard of review for the reasons explained above.
8 In a separate ground for relief, Petitioner contends that his appellate counsel
erred by failing to assert on appeal that the prosecution committed misconduct by
withholding information regarding the purported July 24, 2013 district attorney
reject. And, in yet another ground for relief, Petitioner asserts that the trial court,
committed misconduct by quashing a subpoena directed at obtaining information
about the supposed district attorney reject. Those claims fail for the reasons stated
above.
20

c &se 2:16-CV-02666-AG-FFM

Document 68 Filed 01/25/19 Page 21 of 28 Page ID #:3563

1

of Petitioner because she identified Petitioner in a field show-up. That procedure,

2

according to Petitioner, was flawed because McLeod’s description of the culprit

3

did not match Petitioner, who bears a prominent tattoo on his forehead. Thus, by

4

using a field show-up, where Petitioner was the only possible suspect, law

5

enforcement effectively ensured that McLeod would identify Petitioner, even

6

though his appearance did not match her description of the culprit.

7

Petitioner also faults trial counsel for failing at the preliminary hearing to

8

challenge the procedure that law enforcement used to obtain positive

9

identifications of Petitioner from third party witnesses to Petitioner’s crimes.

10

According to Petitioner, law enforcement used an impermissibly suggestive

11

photographic line-up in obtaining those identifications. Citing the fact that he,

12

himself, successfully moved to exclude the identifications resulting from the

13

photographic line-ups at trial, Petitioner concludes that counsel, likewise, should

14

have moved to exclude the identifications.

15

Petitioner, furthermore, contends that he was deprived of his right to

16

effective assistance of counsel on appeal because his appellate counsel failed to

17

assert several meritorious arguments on appeal and, instead, filed a no-merits

18

brief, pursuant to People v. Wende, 25 Cal. 3d 436, 441-42, 158 Cal. Rptr. 839,

19

600 P.2d 1071 (1979). According to Petitioner, appellate counsel should have

20

asserted the following claims of error of appeal: (1) Petitioner’s waiver of counsel

21

was invalid because, when he waived counsel, he did not know that the

22

prosecution would amend its information to add a prior strike allegation;9 (2)

23

Petitioner was deprived of his right to present oral argument in support of his

24

motion for new trial; (3) the bench warrant for Petitioner’s arrest was invalid

25
26
27
28

9 Petitioner also maintains that appellate counsel should have raised a claim of
prosecutorial misconduct based on the prosecution’s purported breach of an
agreement not to seek a prison sentence of more than eleven years and four
months.
21

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 22 of 28 Page ID #:3564

1

because it was based on inadmissible identification evidence;10 and (4) trial

2

counsel erred in failing to challenge several pre-trial witness identifications of

3

Petitioner.

4

The Los Angeles County Superior Court rejected each of the foregoing

5

allegations of attorney error. As explained below, the superior court did not

6

commit constitutional error in doing so.

7

The standards for assessing the performance of trial and appellate counsel

8

are the same. Evitts v. Lucey, 469 U.S. 387, 395-99, 105 S. Ct. 830, 83 L. Ed. 2d

9

821 (1985); Cockett v. Ray, 333 F.3d 938, 944 (9th Cir. 2003). As to each

10

allegation of error, petitioner bears the burden of establishing both components of

11

the standard set forth in Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct.

12

2052, 80 L. Ed. 2d 674 (1984). Under the first prong of that test, the petitioner

13

must prove that his attorney's representation fell below an objective standard of

14

reasonableness. Id. at 687-88. To establish deficient performance, the petitioner

15

must show his counsel “made errors so serious that counsel was not functioning

16

as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Id. at 687;

17

Williams v. Taylor, 529 U.S. 362, 391, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000).

18

In reviewing trial counsel’s performance, however, courts “strongly presume[]

19

[that counsel] rendered adequate assistance and made all significant decisions in

20

the exercise of reasonable professional judgment.” Strickland, 466 U.S. at 690;

21

Yarborough v. Gentry, 540 U.S. 1, 8, 124 S. Ct. 1, 157 L. Ed. 2d 1 (2003). Only

22

if counsel’s acts and omissions, examined within the context of all the

23

surrounding circumstances, were outside the “wide range” of professionally

24

competent assistance, will petitioner meet this initial burden. Kimmelman v.

25
26
27

28

10 Petitioner also faults appellate counsel for failing to argue that the prosecution
committed misconduct by relying on impermissible eyewitness identification
procedures in obtaining the bench warrant and admitting certain witness
identification testimony at trial.
22

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 23 of 28 Page ID #:3565

1

Morrison, 477 U.S. 365, 386, 106 S. Ct. 2574, 91 L. Ed. 2d 305 (1986);

2

Strickland, 466 U.S. at 690.

3

Under the second part of Strickland's two-prong test, the petitioner must

4

show that he was prejudiced by demonstrating a reasonable probability that, but

5

for his counsel’s errors, the result would have been different. 466 U.S. at 694.

6

The errors must not merely undermine confidence in the outcome of the trial or

7

the appeal, but must result in a proceeding that was fundamentally unfair.

8

Williams, 529 U.S. at 393 n.17; Lockhart, 506 U.S. at 369. The petitioner must

9

prove both deficient performance and prejudice. A court need not, however,

10

determine whether counsel's performance was deficient before determining

11

whether the petitioner suffered prejudice as the result of the alleged deficiencies.

12

Strickland, 466 U.S. at 697.

13

1.

14

Trial Counsel

Petitioner cannot satisfy either prong of the Strickland test with regards to

15

his allegations of trial counsel error. First, there was nothing improper about law

16

enforcement’s use of a field show-up to obtain McLeod’s positive identification

17

of Petitioner. Courts have routinely refused to find anything impermissibly

18

suggestive when police have used procedures similar to those used in Petitioner’s

19

case. See United States v. Meyer, 359 F.3d 820, 824-25 (6th Cir. 2004) (witness’s

20

pre-trial identifications of defendant as man who robbed him were not

21

impermissibly suggestive, as would require suppression of witness’s in-court

22

identification, even though witness was shown single photograph of defendant);

23

Herrera v. Collins, 904 F.2d 944, 947-48 & 947 n.2 (5th Cir. 1990) (holding that

24

pretrial identification based on single photograph of defendant was admissible

25

where no substantial likelihood of misidentification existed).

26

Indeed, both the Supreme Court and the Ninth Circuit have recognized that

27

one person field show-ups, without more, do not violate due process. Neil v.

28

Biggers, 409 U.S. 188, 198-99, 93 S. Ct. 375, 34 L. Ed. 2d 401 (1972) (stating
23

Cflise 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 24 of 28 Page ID #:3566

1

that results of one-person field show-up identification was admissible, even

2

though police did not exhaust available avenues to secure multi-person line-up

3

before presenting defendant at field line-up); Stovall v. Denno, 388 U.S. 293, 302,

4

87 S. Ct. 1967, 18 L. Ed. 2d 1199 (1967), overr’d on other grounds by Griffith v.

5

Kentucky, 479 U.S. 314, 107 S. Ct. 708, 93 L. Ed. 2d 649 (1987); United States v.

6

Kessler, 692 F.2d 584, 585 (9th Cir. 1982) (“[S]how-ups are not objectionable

7

unless the procedure was so impermissibly suggestive as to give rise to a very

8

substantial likelihood of irreparable misidentification.”); United States v. Kessler,

9

692 F.2d 584, 585-86 (9th Cir. 1982) (stating that “show-up is a permissible

10

means of identification without requiring a showing of exigency”).

11

Moreover, even if the field show-up at issue, here, was unduly suggestive,

12

the resulting identification evidence would not have been excluded. See Manson

13

v. Brathwaite, 432 U.S. 98, 113-14, 97 S. Ct. 2243, 53 L. Ed. 2d 140 (1977);

14

Biggers, 409 U.S. at 199-200. In determining whether an identification obtained

15

by an unduly suggestive procedure is admissible, courts consider the following

16

factors: (1) the witness’s opportunity to observe the individual at the time of the

17

crime; (2) the degree of attention focused on the individual by the witness; (3) the

18

accuracy of the witness’s description of the individual prior to the challenged

19

procedure; (4) the level of certainty demonstrated by the witness during the

20

challenged procedure; and (5) the elapsed time between the crime and the

21

identification procedure. Biggers, 409 U.S. at 199-200.

22

Here, the relevant factors favored admission of McLeod’s identification.

23

McLeod was positive that Petitioner was the person who punched her and stole

24

her car. Although she did not identify the precise nature of Petitioner’s tattoo on

25

his forehead, she nevertheless noticed that he had “blocks of dark tattoos” on his

26

forehead. And, she immediately identified Petitioner at the field show-up. What

27

is more, she identified Petitioner on the same day on which the crime occurred.

28

More importantly, Petitioner effectively confessed to stealing McLeod’s car.

24

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 25 of 28 Page ID #:3567

1

Indeed, when he was arrested, he stated, “I took the car. I took the car from the

2

old lady. »9ii Thus, there was no basis to challenge McLeod’s identification and,

3

consequently, counsel could not have performed unreasonably in failing to do so.

4

See Kimmelman v. Morrison, 477 U.S. 365, 375, 106 S. Ct. 2574, 91 L. Ed. 2d

5

305 (1986); Boag v. Raines, 769 F.2d 1341, 1344 (9th Cir. 1985) (counsel’s

6

failure to raise meritless argument does not constitute ineffective assistance).

7

Second, assuming counsel erred in failing to challenge the identifications

8

obtained through law enforcement’s use of photographic six-packs, Petitioner can

9

show no resulting prejudice. Representing himself, Petitioner successfully moved

10

the trial court to exclude the identifications obtained through use of the

11

photographic six-packs. Thus, they had no impact on the trial proceedings or the

12

jury’s verdict.

13
14
15

Accordingly, Petitioner is not entitled to habeas relief with respect to either
of his allegations of trial counsel error.12
2.

Appellate Counsel

16

None of Petitioner’s allegations of error on appellate counsel’s part

17

warrants habeas relief. First, as explained above, there was no basis upon which

18

to challenge Petitioner’s competence to waive his right to counsel, and, moreover,

19

he was not entitled to be re-advised of his right to counsel after the prosecution

20

amended the information to add a prior strike allegation. {See supra) Further,

21
22
23
24

25
26
27

28

11 When sentencing Petitioner, the trial court noted that McLeod was an “elderly
woman.” (Lodged Doc. No. 11 at 3 n.5.)
12 Petitioner also contends that his appellate counsel erred in failing to assert on
appeal a claim that trial counsel erred in failing to challenge the pre-trial witness
identifications of Petitioner. In addition, Petitioner maintains that appellate
counsel erred in failing to argue that the prosecution committed misconduct by
relying on impermissibly suggestive identification eyewitness procedures to
introduce certain witness identification testimony at trial. Those claims fails for
the reasons stated above.
25

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 26 of 28 Page ID #:3568

1

contrary to Petitioner’s allegations, the prosecution did not breach any agreement

2

not to amend the information to seek a longer prison sentence than that set forth

3

in the original information because no such agreement existed.

4

Second, Petitioner suffered no prejudice from counsel’s failure to assert

5

that Petitioner was deprived of his right to present oral argument in support of his

6

motion for new trial. The Supreme Court has never recognized a constitutional

7

right to present oral arguments in connection with a new trial motion. Indeed,

8

other than the right to orally deliver final argument or summation, the Supreme

9

Court has declined to imply the existence of “a constitutional right to oral

10

argument at any stage of the trial or appellate process.” Herring v. New York, 422

11

U.S. 853, 863 n.13, 95 S. Ct. 2550, 45 L. Ed. 2d 593 (1974). Further, Petitioner

12

does not identify any argument he would have made orally that would have

13

persuaded the trial court to grant his motion for new trial. As such, his claim fails

14

as wholly conclusory. See Borg, 24 F.3d at 26; Jones, 66 F.3d at 205 {supra).

15

Third, there is no merit to Petitioner’s claim that the bench warrant for his

16

arrest was invalid. All three victims identified Petitioner as the person who

17

carjacked, or attempted to carjack, them. Moreover, Petitioner confessed to

18

stealing one of the victim’s car. Thus, irrespective of the identifications that were

19

excluded due to the purportedly impermissibly suggestive photographic line-ups,

20

there was ample probable cause to support Petitioner’s arrest.13

21

In short, Petitioner’s allegations of attorney error are meritless.

22

Consequently, the superior court’s rejection of Petitioner’s allegations of attorney

23

III

24

III

25
26
27

28

13

In addition, Petitioner maintains that appellate counsel erred in failing to argue
that the prosecution committed misconduct by relying on impermissibly
suggestive eyewitness identification procedures in obtaining the bench warrant
against him. That claim fails for the reasons stated above.
26

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 27 of 28 Page ID #:3569

1

error was neither an unreasonable application of, nor contrary to, clearly

2

established federal law as determined by the Supreme Court.14

3
4

VII. RECOMMENDATION
The Magistrate Judge therefore recommends that the Court issue an order:

5

(1) approving and adopting this Report and Recommendation; and (2) directing

6

that judgment be entered denying the First Amended Petition on the merits with

7

prejudice.

8
9

DATED: January 25, 2019

10

/S/ FREDERICK F. MUMM
FREDERICK F. MUMM
United States Magistrate Judge

11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

28

14 The undersigned also notes that Petitioner’s allegations of attorney error would
fail under the de novo standard of review for the reasons explained above.
27

Cfese 2:16-cv-02666-AG-FFM Document 68 Filed 01/25/19 Page 28 of 28 Page ID #:35T0

1
2

NOTICE
Reports and Recommendations are not appealable to the Court of Appeals,

3

but are subject to the right of any party to timely file Objections as provided in

4

the Local Rules Governing the Duties of the Magistrate Judges, and review by the

5

District Judge whose initials appear in the docket number. No Notice of Appeal

6

pursuant to the Federal Rules of Appellate Procedure should be filed until entry

7

of the Judgment of the District Court.

8
9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

28
28

